<html>
<title> - GET IT RIGHT THIS TIME: A VICTIMS- CENTERED TRAFFICKING IN PERSONS REPORT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











   GET IT RIGHT THIS TIME: A VICTIMS	CENTERED TRAFFICKING IN PERSONS 
                                 REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2016

                               __________

                           Serial No. 114-185

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
   
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-554 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark P. Lagon, president, Freedom House............     6
Mr. Matthew Smith, executive director, Fortify Rights............    20
Ms. Jinhye Jo, president, NKinUSA................................    37
Ms. Maria Werlau, president, Free Society Project................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark P. Lagon: Prepared statement..................    10
Mr. Matthew Smith: Prepared statement............................    23
Ms. Jinhye Jo: Prepared statement................................    40
Ms. Maria Werlau: Prepared statement.............................    47

                                APPENDIX

Hearing notice...................................................    84
Hearing minutes..................................................    85
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Preliminary list of political prisoners in Cuba.    86

 
                   GET IT RIGHT THIS TIME: A VICTIMS-
                 CENTERED TRAFFICKING IN PERSONS REPORT

                              ----------                              


                        TUESDAY, MARCH 22, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2167 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith of New Jersey. Subcommittee will come to order, 
and good afternoon to everyone and thank you for being here.
    Just I'd like to begin this hearing first noting that in 
President Obama's press conference with Raul Castro yesterday, 
Raul Castro said that there were no political prisoners, daring 
people to come up with a list of political prisoners in Cuba.
    I have in my hand a list of 50 political prisoners, 
compiled by my good friend, Ileana Ros-Lehtinen, from 
information provided by a number of democracy and human rights 
organizations.
    And without objection, I would like to make that list part 
of the record. One of those people is Alexander Reyes, 
sentenced to 5 years in prison on March 2, 2016, just a few 
days ago.
    His crime? Tossing fliers with anti-government messages on 
the street. In fact, to punish him further he went from one 
prison to the notorious Kilo 8 Prison.
    Then there's the example of Yasiel Espino Aceval, who went 
on a hunger strike last year in protest of the abuses and 
torture meted out to political prisoners by the Castro 
brothers' goons.
    And just this past Sunday, hours before President Obama was 
to arrive in Cuba, Baptist pastor and religious freedom 
activist, the Reverend Mario Felix Lleonart Barroso, was 
arrested by the Castro regime, as well as his wife, Yoaxis, who 
was placed under house arrest.
    I want to welcome you to today's hearing, ``Get It Right 
This Time: A Victims-Centered Trafficking in Persons Report,'' 
at which we will look closely at the records of several 
countries, including Cuba, China, Malaysia, Oman, and Burma and 
others, whose trafficking tier rankings were manipulated and 
falsified for political reasons in last year's report.
    As the sponsor of the Trafficking Victims Protection Act of 
2000, America's landmark law to combat human trafficking, which 
among its many policy provisions created the Trafficking in 
Persons Report and the tier rankings, I am extremely 
disappointed and concerned that last year's TIP Report gave a 
pass to several countries meriting a Tier 3 ranking, countries 
whose trafficking victims desperately needed protection and 
America's powerful voice.
    The 2015 TIP Report failed many of the victims, and the 
victims deserve better. The politically contrived passing grade 
for failing governments was exposed by a series of 
investigative reports by Reuters, and I and many others and 
anyone involved in human rights are grateful to Reuters for 
those articles.
    And they found that the professionals at the State 
Department at the TIP office made one set of recommendations, 
only to be overruled at a higher level for political reasons.
    For example, the TIP office recommended the Tier 3 ranking 
for Cuba, China, Malaysia, and Oman--14 countries in all--and 
this was rejected by the Obama administration at a higher level 
in last year's report.
    Each of the 14 countries were then given passing grades. 
Alexandria Harney, Jason Szep, and Matt Spetalnick of Reuters 
authored several incisive reports, including an expose, on 
China's politicized ranking, finding, ``Two years after China 
announced it was ending the reeducation through labor system, 
extrajudicial networks of detention facilities featuring 
torture and forced labor thrive in its place.''
    China had deceived the United States in 2014 and when that 
became apparent last year, we let them keep on with their ill-
gotten upgrade on the tier ranking.
    The State Department must get the TIP Report right or we 
will lose the foundational tool created by the TVPA to help the 
more than 20 million victims of trafficking enslaved around the 
world.
    In the end, the Trafficking in Persons Report is all about 
victims. The threshold question must be, as Ambassador Mark P. 
Lagon included in his 2008 TIP Report, ``a country's 
performance is based strictly on this trafficking-specific 
criteria stipulated by the TVPA.''
    A tier ranking is about protecting vulnerable lives--lives 
destroyed or saved by the on-the-ground impact of a 
government's action or inaction.
    We have seen many countries take a Tier 3 ranking seriously 
and make real, systemic, and sustainable changes that improve 
their tier rankings but, more importantly, protected 
trafficking victims, and countries such as South Korea and 
Israel come to mind.
    When the Bush administration branded South Korea and 
Israel, two of our closest allies, but based on their records 
branded them as Tier 3, both countries reacted, enacted and 
implemented robust policies to combat human trafficking, and 
were given earned upgrades for their verifiable actions.
    But today we've seen other countries attempt to end-run 
around the accountability system with endless empty promises of 
action or mostly meaningless gestures of compliance.
    Congress, in 2003, created the Tier 2 Watch List for those 
countries, which many have undertaken significant anti-
trafficking steps late in the evaluation year.
    Unfortunately, this ranking is being misused to reward 
insignificant actions and to enable irresponsibility. How would 
the 16-year-old girl being pimped, legally, in Cuba's sex 
tourism industry rank Cuba on human trafficking? I can assure 
you, not with a politically motivated passing grade.
    How would a Rohingya migrant trapped in Malaysian forced 
labor rank Malaysia when his trafficker laughs at the mention 
of penalties?
    How would the sex trafficking victim forced to do labor in 
a Chinese detention center year after year, or be sent back to 
torture and death in North Korea rank China?
    How would a young boy rank Burma, when he has been forced 
to labor for the military while his sister is turned into a 
modern-day ``comfort woman''?
    Tier rankings are about real prosecutions, real prevention 
and real protection for real people who are suffering as 
slaves.
    Cuba is an egregious example of a nation being given an 
unwarranted passing grade because of other non-human 
trafficking considerations.
    Just read the report. The report leads you to the 
inevitable conclusion--stamp it Tier 3 egregious violator.
    Yet, President Obama is there today hobnobbing with the 
very people who are kept in power by the profits of slave 
labor. The very people who do not have a law against labor 
trafficking. The very people whose hotels are filled with sex 
tourists who come to Cuba specifically to sexually exploit 
minors.
    My latest anti-trafficking law, it's the fourth so far, the 
International Megan's Law fights sex tourism but assumes a 
willing, not profiting, partner country. Some tourists go to 
Cuba because Cuba facilitates sex trafficking. Cuba also 
harbors criminals--just ask the family of Werner Foerster, a 
New Jersey State Trooper who was gunned down at a traffic stop 
by Joanne Chesimard. Cuba protects Chesimard to this day.
    Maria Werlau will testify this afternoon that, ``What makes 
the Cuban case unique, as well as astounding is, that 
trafficking is a huge operation run by the government through 
numerous state enterprises with . . . accomplices, 
participants, sponsors, and promoters all over the world,'' and 
that the Cuban dictatorship is involved in ``four main sources 
of human trafficking--export services for temporary workers, 
forced labor and sex trafficking, state-sponsored or forced 
migration, and export sales of human body parts. Our State 
Department Trafficking in Persons Report, however, ``addresses 
only two of these aspects and, in my view, quite poorly,'' she 
says in her testimony.
    The trafficking rankings should not be used as cheap chits 
and sweeteners than can be compromised in the hope of bringing 
about better governmental relations with Cuba, or any other 
nation. Rather, better relations with Cuba or any other nation 
should be preconditioned on real protection for Cuba's 
prostituted children and women and recognition of labor 
trafficking.
    The President, seems to me, is lending his stature, 
particularly as a Nobel Peace Prize winner, to the very people 
who are imprisoning human rights advocates at a higher rate 
than ever.
    Cuba's actions prove once again that lifting accountability 
only emboldens evil. The TIP Report was meant to hold countries 
accountable for their failures to fight human trafficking.
    It was meant to speak truth to power. It was meant to speak 
for the trafficking victims waiting, hoping, and praying for 
relief. In 2016, the TIP Report must rank the governments on a 
country's performance that is ``based strictly on the 
trafficking-specific criteria,'' as Ambassador Lagon has said 
is ``stipulated by the TVPA.''
    Every ranking must be assigned without--I repeat, without 
any political manipulation and without any dishonesty. Get the 
tiers right in 2016. The lives of many of the weakest and the 
most vulnerable and U.S. credibility hang in the balance.
    I'd like to yield to Mark Meadows for any comments he might 
have.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Ambassador, good to see you again. Thank you for your 
work. Mr. Smith, welcome back, and certainly nice to meet you.
    And Mr. Chairman, I would be remiss if I didn't mention the 
fact that you had been not only tenacious on this particular 
topic but unrelenting and unyielding in your resolve and I 
appreciate that, but more importantly, express my appreciation 
perhaps for the hundreds of thousands of children that are 
being trafficked across the country, across the world, that the 
political nature of manipulating the TIP Report directly harms.
    And I think that that's the underscoring message that 
should be brought forth here today is when we play politics 
with the TIP Report, those nations who see the need to become 
more aggressive in combating human trafficking and go from Tier 
3 to Tier 2 put actions with their words.
    And if, indeed, they believe that for political reasons 
that they can bypass the TIP Report, either through economic 
manipulation, through bilateral trade agreements or the like, 
then they never addressed the underlying problem.
    They start to address it in other ways to make sure that 
they get off of that list, knowing that it has very little to 
do with human trafficking and everything to do with either 
their diplomacy or how they get involved in other aspects that 
are important to the United States.
    So I look forward to your testimony today. I've been one 
of, I believe, six of my colleagues who have signed on to a 
letter asking for the split memos as it relates to the TIP 
office's decisions that have been made because there is a 
recommendation was made and obviously those split memos would 
give us real insight from the State Department on the why of 
those decisions and who made those decisions.
    And with that, I look forward to the expert testimony. It's 
good to have you back and I yield back, Mr. Chairman.
    Mr. Smith of New Jersey. Thank you very much, Mr. Meadows.
    I'd like to now introduce our distinguished witnesses, 
beginning first with Ambassador Mark P. Lagon, who is currently 
the president of Freedom House, the first independent American 
organization to advocate the advancement of freedom and 
democracy around the world.
    Ambassador Lagon's long and distinguished career also 
includes the distinction of being our third Ambassador-at-Large 
to Monitor and Combat Trafficking in Persons who leads the 
Office to Monitor and Combat Trafficking in Persons at the U.S. 
Department of State.
    His record of involvement in human rights is long and 
diverse, spanning from Deputy Assistant Secretary in the Bureau 
of International Organization Affairs, with responsibility for 
human rights, humanitarian issues, and the United Nations 
reform through academia where he was the chair for global 
politics and security at Georgetown University's master of 
science in foreign service program and adjunct senior fellow 
for human rights at the Council on Foreign Relations.
    Notably, Ambassador Lagon has also served as the executive 
director and chief executive officer of the anti-human 
trafficking nonprofit the Polaris Project.
    We'll then hear from Mr. Matthew Smith, who is founder and 
executive director of Fortify Rights and a 2014 Echoing Green 
global fellow. He has previously worked with Human Rights Watch 
and Earth Rights International.
    Mr. Smith's groundbreaking research has exposed wartime 
abuses and forced displacement and crimes against humanity and 
ethnic cleansing, multibillion-dollar corporation development 
induced abuses and other human rights violations.
    He has also written for a variety of major media outlets. 
Before moving to Southeast Asia in 2005, Mr. Smith worked with 
Kerry Kennedy of the Robert F. Kennedy Center for Justice and 
Human Rights on Speak Truth to Power. He also worked as a 
community organizer and an emergency services case worker.
    Mr. Smith flew halfway around the world to be with us today 
so we're very grateful for that sacrifice that he has made to 
be with us today.
    We'll then hear from Ms. Jinhye Jo, who was born in North 
Korea, and she lived there from 1987 to 1998. During this time, 
she lost her father, grandmother, and younger brothers because 
of hunger.
    Her older sister disappeared and is believed to have been 
trafficked into China. In 1998, she escaped from North Korea to 
China with her mother and younger sister, Grace.
    They suffered tremendously in China for about 10 years, 
surviving four repatriations to North Korea because they were 
considered illegal migrants by China.
    Finally, in 2008 Jinhye Jo and her family were able to come 
to the United States with refugee status. She formed a 
nonprofit organization called North Korean Refugees in the 
United States and has directly rescued North Korean females who 
were victims of trafficking and other refugees--and assisted 
other North Korean refugees with resettlement in the United 
States. Thank you again for traveling so far to be here with us 
today.
    And then we'll hear from Ms. Maria Werlau, who co-founded 
in 2002 the Free Society Project and still heads the project, a 
nonprofit organization to advance human rights through research 
and scholarship.
    Its leading initiative, the Cuba Archive: Truth and Memory 
Project, focuses on transitional justice issues and human 
exploitation.
    Ms. Werlau is a former second vice president of Chase 
Manhattan Bank and a longtime independent consultant 
specializing in Cuban affairs and other international issues.
    Her extensive publications on Cuba cover a wide range of 
topics including policy, international law, foreign investment, 
and other economic issues.
    She has served on task forces on U.S.-Cuba relations for 
the Council on Foreign Relations and the American Enterprise 
Institute. Thank you as well.
    I'd like to now yield to Ambassador Lagon such time as he 
may consume.

 STATEMENT OF THE HONORABLE MARK P. LAGON, PRESIDENT, FREEDOM 
                             HOUSE

    Ambassador Lagon. Thank you very much, Chairman Smith, Mr. 
Meadows, members of the subcommittee.
    I'm really pleased to again take part in your annual 
oversight effort. I'm very happy to be back. I appreciate your 
annual oversight effort to anticipate an upcoming Trafficking 
in Persons Report.
    Many associate trafficking with movement and migration of 
people, one of the vernacular connotations of trafficking. But 
while trafficking often involves migration, it need not.
    Words also associated with poverty, trafficking is seen as 
created by poverty. But I'd really like to drive home today 
that trafficking is not so much solely about being poor as it 
is about poor governance, poor rule of law, and poor access to 
justice.
    The most vulnerable to trafficking are groups denied equal 
protection under the law: minorities, migrants, women, and 
those who happen to be in multiple ones of those categories.
    When I was the director of the TIP office at State, I asked 
for the following passage to be placed into the introductory 
analysis in the 2008 report and I've included the passage in 
full in my written testimony that I'd ask you to admit to the 
record kindly.
    But let me read a short part:

        ``Our broad study of the phenomenon of trafficking 
        corroborates that healthy vital democratic pluralism is 
        the single most prevalent feature of states conducting 
        effective anti-trafficking efforts. A vibrant democracy 
        is the best guarantor of human dignity and respect for 
        the human rights and fundamental freedoms of all 
        persons including women, children, prostituted people, 
        and foreign migrants who are among the most vulnerable 
        populations susceptible to trafficking.''

    One official at the State Department actually fought with 
me about including this passage, questioning whether it was 
necessary to become democratic to fight TIP.
    My response to him in negotiating the final text of the 
report was no, but it sure helps. Governance, rule of law, 
access to justice, and democracy in full, and not just 
elections, are at the heart of Freedom House's work. My 
executive vice president lauded me for what I included in the 
2008 report as if I knew I was going to be working for Freedom 
House later.
    Well, Freedom House started putting out reports that gave 
grades to other countries and to the United States 29 years 
before even the first TIP Report.
    The latest Freedom in the World report that was released in 
January shows that more countries have gone in the wrong 
direction--72 countries--than in the right direction--the 
largest gap between those figures in 6 years.
    In every one of the last 10 years, more countries have 
declined in political rights and civil liberties than those 
that have improved and that is the first time of a decade-long 
slide in the 44 years of the report.
    If you look at the subscores of political rights and civil 
liberties measured consistently by Freedom House since 1972, 
the biggest declines are in three areas, all pertinent to human 
trafficking: freedom of expression for civil society and the 
press to call attention to the problem, freedom of association 
for labor unions and civil society groups to stand up for the 
vulnerable, and the rule of law to fight corruption.
    Anticipating the 2016 TIP Report, let's look at a few 
countries of particular concern in Freedom House's analysis and 
some countries of hopeful improvement in my organization's 
estimation.
    As for countries of particular concern, let's look at 
Malaysia in East Asia. It's ranked partly free in the 2016 
edition of Freedom in the World. If the best score for Freedom 
House is a one and the worst score, least free, is is seven, a 
one to seven scale, it gets a four for both political rights 
and civil liberties.
    That country represented the single most striking and 
suspect ranking in last year's report, upgraded rather than 
getting Tier 3, presumably to keep it viable for the Trans-
Pacific Partnership.
    Let me say, I and Freedom House are for the Trans-Pacific 
Partnership to create a context of rule of law, rules of the 
game, for states. But as it stands today, Malaysia doesn't 
deserve to be part of that amalgam.
    In the Middle East and North Africa, Qatar is ranked not 
free in Freedom of the World, receiving a score of six for 
political rights and five for civil liberties.
    Revelations in the press about construction of facilities 
for upcoming international competitions and for American 
universities' campuses make Qatar all the more troubling than 
the standard vulnerability for women and migrants that exist in 
Gulf countries.
    It's gotten Tier 2 Watch List for 2 years. A very sceptical 
eye is due, if it were to be given a waiver or a change.
    Saudi Arabia is one of the 12 worst human rights abusers in 
the world, according to Freedom in the World, receiving the 
lowest possible score of seven for both political rights and 
civil liberties.
    It doesn't even have the pretext that exists for other 
countries in the Gulf that say that their foreign workers 
massively outnumber their local population. It's only a 56-
percent total for the foreign workers in Saudi Arabia.
    It is most important to the region if Saudi Arabia were to 
make reforms. It's the big player on the block. Smaller players 
have pretexts for not acting if the big player doesn't act.
    It shouldn't be given a carrot to induce change. It needs 
to be rewarded for real change. The Tier 2 Watch List ranking 
last year deserves scrutiny.
    And Cuba is ranked not free in Freedom of the World, with a 
seven for political rights and a six for civil liberties. It 
hasn't made much progress whatsoever despite the resumption of 
diplomatic relations.
    It was raised to Tier 2 Watch List and that raised some 
eyebrows, properly. Profoundly unfree conditions for workers 
without an independent voice from state power and the raucous 
sex trade that Chairman Smith has already referred to marketed 
to tourists abroad remain reasons for close examination.
    There are some rays of hope. In Asia, Myanmar is ranked not 
free but with signs of improvement with its huge voter turnout 
for an overwhelming victory for Aung San Suu Kyi and her party. 
Yet armed military attacks against religious and ethnic 
minorities in the Kachin State and widespread discrimination 
and attacks against the Rohingya remain serious problems.
    Myanmar ought not to be given a pass or an unfounded bonus 
despite some reasons for optimism.
    Sri Lanka is ranked partly free in Freedom of the World. 
Importantly, in 2015 voters in Sri Lanka ousted the 
increasingly authoritarian President Mahinda Rajapaksa and 
replaced him with Maithripala Sirisena.
    Sirisena, when taking office, overturned some of the most 
repressive policies that existed before and, again, repairing 
relations with the country's Tamil minority and the 
international community.
    Trafficking in Sri Lanka could involve a number of reasons. 
The South Asia bonded labor syndrome, one might call it--Sri 
Lankan migrant workers given insufficient help by their 
government abroad, male and female sex trafficking, among other 
reasons.
    Just because there are reasons for optimism isn't a reason 
for grade inflation.
    In the Middle East, Tunisia is the one country that has 
truly flowered since the Arab Spring with a score of one for 
political rights and three for civil liberties.
    But with its new Constitution and free elections it's 
crucial for the United States and our democratic allies to 
provide robust support. If Tunisia doesn't implement the 
written plan that it supplied to the U.S. to avert a downgrade 
in 2015 or if it doesn't pass a comprehensive law on all forms 
of trafficking, the United States will do it no favor at all 
with a mercy ranking or a mercy waiver.
    In conclusion, there are a number of governments to watch 
closely that lie on that cusp between modestly addressing the 
problem of human trafficking, which we call Tier 2 Watch List, 
and not appreciably trying at all, which we call Tier 3.
    These include Malaysia, China, Myanmar, Sri Lanka, Qatar, 
Saudi Arabia, Tunisia, and Cuba. It's worth looking where such 
nations fall in the larger picture of trends in governance and 
human rights in the last year and in the last decade, which is 
Freedom House's job to monitor.
    Slavery is a special abomination. But it's inextricably 
part of a larger global scope of meaningful democracy--not just 
elections but meaningful democracy in which all human beings 
resident in a country get justice in practice, or they don't.
    Thank you.
    [The prepared statement of Mr. Lagon follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
                              ----------                              

    Mr. Smith of New Jersey. Mr. Lagon, thank you very much for 
your testimony.
    As usual, your written statement too is extremely well 
documented and without objection it, in its entirety, will be 
made a part of the record as well as the full statements of all 
of our witnesses and any extraneous matter you'd like to 
include in the record.
    Mr. Smith.

  STATEMENT OF MR. MATTHEW SMITH, EXECUTIVE DIRECTOR, FORTIFY 
                             RIGHTS

    Mr. Smith. Thank you very much, Mr. Chairman, Mr. Meadows, 
distinguished members of the subcommittee.
    Thank you very much for the opportunity to be here today. 
I'd like to focus my testimony and share some information about 
three countries where Fortify Rights works--Myanmar, Thailand 
and Malaysia.
    In Myanmar, or Burma, the Army's Border Guard Force and 
non-state ethnic armies continue to recruit and use child 
soldiers. Forced labor also continues with impunity in public 
works projects and in situations of armed conflict in the 
country.
    Most recently we documented how the Army forced ethnic 
Rakhine civilians to carry weapons and rations in a conflict 
zone and to dig graves for soldiers who were killed in the 
conflict, under the threat of death.
    We've also documented the forced labor of ethnic Rohingya 
in northern Rakhine State including thousands of children. 
We've received no information to suggest perpetrators have been 
held accountable or victims have been protected in these areas.
    Last year, tens of thousands of Rohingya Muslims fled 
western Myanmar in ships operated by human traffickers. We 
documented how Myanmar state security forces were actually 
complicit or directly involved in the trade. Perpetrators have 
not been held accountable.
    Today, boat departures of Rohingya have reduced greatly 
but, unfortunately, that's not due to any notable change in the 
behavior by Myanmar authorities. Appalling abuses against the 
Rohingya continue.
    Myanmar had elections in November. We're very hopeful about 
the prospects of the NLD-led government. But it's essential 
that this year's ranking for Myanmar be objective.
    Despite the optics of democracy in the country, the Myanmar 
military remains the strongest political institution in the 
country. The State Department, in our view, should downgrade 
Myanmar and encourage the military to work closely with the NLD 
to end all forms of human trafficking.
    With regard to Thailand, in the last year Thailand devoted 
unprecedented attention to human trafficking. Less than 12 
months ago criminals and complicit authorities were holding 
Rohingya refugees and Bangladeshi nationals captive in illicit 
torture camps, buying and selling them by the thousands.
    Those who couldn't buy their freedom were killed in some 
cases or sold into situations of continued exploitation. Today, 
to our knowledge, those camps no longer exist.
    Less than a year ago, Thai officials acknowledged mass 
graves of Rohingya and Bangladeshi victims of trafficking and 
this month the human trafficking trial of 92 defendants 
resumed, including members of the Thai Army, Navy, and Police.
    On the fishing sector, which has used slave labor for many 
years, Thailand passed legislation in December to address 
illegal fishing and establish monitoring and traceability 
mechanisms.
    Despite all of these efforts, however, severe problems 
remain. Extensive use of slave labor in the seafood sector has 
continued. Just 3 months ago, horrific slave labor in the 
shrimp-peeling sector was exposed.
    In terms of prosecutions, just 3 months ago a police Major 
General who was the chief investigator and key witness in the 
Rohingya trafficking trial feared for his life and fled to 
Australia where he's seeking asylum.
    It's important to note that he feared government officials 
and state security forces. Other witnesses in that particular 
trial have also been threatened and we're concerned that these 
threats may prejudice the trial.
    The investigation of trafficking of Rohingya in Thailand 
and Bangladeshi nationals in Thailand was also prematurely 
closed in 2015.
    Our information suggests there are additional mass graves 
in Thai territory and Thai officials recently told us that 
human trafficking syndicates are still active in southern 
Thailand. These facts alone, in our view, would indicate the 
need for an ongoing investigation.
    In terms of protection for survivors, we recently visited 
two government-run shelters in southern Thailand where Rohingya 
witnesses in a high-profile trafficking trial are being held in 
detention.
    In the last year, some Rohingya in the shelter have 
reportedly gone missing. Needless to say, this is very 
concerning and remaining witnesses in the country remain at 
great risk.
    As of December, only 12 of 500 witnesses in this particular 
trial were receiving formal witness protection through the 
Ministry of Justice.
    Following discussions we had with government officials a 
cabinet resolution passed last week that would provide 
witnesses in human trafficking trials automatic witness 
protection under the Ministry of Justice.
    This is encouraging indeed. However, Thailand still 
maintains a push-back policy with regard to migrants including 
potential survivors of trafficking arriving by boat.
    Last year, Thailand pushed boats of migrants out to sea, 
despite that alleged traffickers operated the ships. Thailand 
also callously refused disembarkation for thousands of 
desperate Rohingya who were adrift at sea. Their boats were 
abandoned by human trafficking syndicates and this cost untold 
lives.
    The push-back policy, in our view, is deadly and has no 
place in a regime intent on combatting human trafficking. In 
Malaysia last year we recommended that Malaysia remain at Tier 
3, as the government had done little to combat human 
trafficking.
    We share the view of you, Mr. Chairman, that Malaysia was 
upgraded to Tier 2 Watch List for the wrong reasons and to make 
it eligible for the Trans-Pacific Partnership. This threatened 
the objectivity and integrity of the TIP Report.
    In the last year, Malaysian authorities uncovered more than 
100 grave sites of Rohingya and Bangladeshi victims of human 
trafficking.
    Unfortunately, however, there was no apparent effort to 
investigate those responsible for creating those grave sites. 
Dozens of known traffickers roam free in the country with 
little fear of arrest and this is just from the information 
that we've managed to collect.
    When thousands of Rohingya refugees and Bangladeshi 
nationals were stranded at sea in May 2015, Malaysia stepped up 
and allowed disembarkation. But this was not before authorities 
towed hundreds in these boats out to see, cut the tow line and 
sent them adrift.
    Today, those same survivors who were allowed to disembark 
in Malaysia remain detained in an ill-equipped immigration 
detention facility in Malaysia. This is hardly protection for 
survivors of human trafficking.
    Refugees and survivors of trafficking in Malaysia live in 
hiding. They're commonly fearful of police, who routinely 
extort money from them. They feel they can't report crimes, 
including the crime of trafficking.
    I've personally witnessed a community of Rohingya refugees 
intervene to rescue a 15-year-old Rohingya girl from a 
trafficking syndicate that was preparing to sell her into sex 
work.
    The community told me that they could not report the crime 
to the police for fear that they would end up in detention.
    In conclusion, Mr. Chairman, we believe Myanmar, Thailand, 
and Malaysia fail to meet the minimum standards in the last 
year and deserve Tier 3 status.
    Thank you again for the opportunity to testify.
    [The prepared statement of Mr. Smith follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
  
                              ----------                              

    Mr. Smith of New Jersey. Mr. Smith, thank you very much for 
your testimony and for your insights and I do hope the State 
Department is listening to your wise counsel.
    I'd like to now invite Jinhye Jo to provide her testimony.

         STATEMENT OF MS. JINHYE JO, PRESIDENT, NKINUSA

    Ms. Jo. Good afternoon. My name is Jinhye Jo and I am the 
president of North Koreans in USA, a nonprofit organization 
representing to North Korean refugees in the United States.
    I would like to thank you, Members of Congress, and Ms. 
Suzanne Scholte for giving me the opportunity to testify about 
the situation in North Korea, my home country.
    I have already testified about my family's story in a 
similar hearing on several occasions. Of the nine members of my 
family, only three survived and escaped North Korea to gain our 
freedom.
    However, today I stand here not to testify about my own 
experience 18 years ago, but to speak about North Korea and 
China, two countries that have not changed their ways.
    As is well-known to the international community, 3 million 
North Koreans have starved to death, powerless in the face of 
brutal dictatorship. Furthermore, those who were caught trying 
to escape the country were deprived of their rights. 
Suffocating under the yoke of oppression, they died unjust 
deaths in mobile labor brigades and political prison camps.
    Kim Jong Il, a dictator who atrociously murdered his own 
people, died before he could be brought to justice. Kim Jong 
Un, the third leader of their dynastic regime, continued to 
murder countries, ordered North Koreans tortured and 
starvation. During Kim Jong Il's rule, the North Korean regime 
was brought of shame before the international community as 
videos of North Korean children dying on the street spread on 
the Internet.
    In response the regime mobilized groups of discharged the 
soldiers into arresting kotchebi, or orphaned street children, 
who were imprisoned in cold dark detention centers and put into 
forced labor.
    Many children die slow painful deaths from malnutrition, 
barely surviving on lumps of corn and potatoes, the children 
whose parents went to search for food and did not return, the 
countless souls of those who perished behind bars. They all cry 
out in pain to this day, asking to be granted the freedom of 
peace, free from the pain of hunger.
    I know this first hand from what my mother, my sister, and 
I experienced when we were forcibly repatriated from China in 
June 2006. The fathers who escape in search of food to save 
their family are forcibly repatriated by Chinese Government.
    Once repatriated into the custody of North Korea's State 
Security Department, its agents forcibly kick in the refugees' 
teeth and break their ribs. They are forced to endure the pain 
and humiliation of being beaten all over by metal rods.
    Their noses are smashed in and their arms and legs are 
broken. The mothers and daughters who escaped North Korea are 
broken apart by Chinese brokers who traffic North Korean women. 
The parents who have left their children behind, leaving great 
pain knowing that their children most live on the street as 
orphans.
    They shed tears of great sorrow and resentment with no 
country to call their own. Some younger North Korean women are 
dragged away by Chinese police and locked into dark windowless 
rooms where they are forced into sexual slavery in front of 
webcams.
    It is said that Chinese men use cigarettes and hot spoons 
to burn the skin off North Korean women who do not obey their 
sexual demands. Women who try to resist, hiding beneath their 
blankets, are stomped on so severely that they almost die from 
internal bleeding.
    These women are then thrown in front of police stations, 
left to die on the street. The organization I lead, NKinUSA, 
was able to rescue such women with the generous supports of 
ordinary Americans and Korean-American church groups.
    I would like to speak about the 17-year-old North Korean 
girl who has now resettled in the United States. She was 
arrested in China and forcibly repatriated while trying to 
escape. After bribing the security agents with Chinese money 
she was released successfully and escaped North Korea once 
again.
    However, because she could not speak Chinese she was 
dragged away by human traffickers. She was raped and forcibly 
impregnated. The broker then force-fed medication to this 17-
year-old girl to induce abortion.
    This girl who already survived was rescued and brought to 
the United States. I would also like to speak about the 
heartbreaking story of the North Korean mothers. Her two 
children, one of them 2 years old and other 3 years old, 
starved to death.
    After burying her children next to her husband's grave, she 
left North Korea to find a way to survive. However, she became 
ensnared by human traffickers and was raped several times.
    She was forced to give birth to children whose fathers she 
did not know. One of the men she was sold to tried to sell the 
baby to another family. Furious that she would not give birth 
to his child, he beat her whenever he became drunk.
    I have spoken of only two of the many women that our 
organization was able to rescue. The People's Republic of China 
continues to violate the refugee convention, assisting Kim Jung 
Un by forcibly repatriating North Korean refugees.
    Moreover, the Chinese border security unit in the Tumen 
County, Yanji, Liaoning Province treats North Korean refugees 
in the same way that the North Korean regime does.
    The guards torture and abuse the refugees after locking 
them up behind bars. My family was also arrested for the 
supposed crime of helping North Koreans escape and imprisoned 
for 1 year and 3 months.
    After making all the female prisoners in the cells stand in 
line, they kicked and beat all of us, at one time, even 
pregnant women, the elderly and children are forced to squat 
for hours on end with their arms raised.
    Anyone who leaned on a wall out of exhaustion was beaten 
with rubber club until they were bruised all over. The U.S. 
Government and the international community cannot ignore the 
suffering and misery of North Korean refugees. It must not turn 
a blind eye of such unspeakable human rights violations taking 
place across China.
    I bear no ill will toward the Chinese people. I only speak 
to criticize the wrongdoing of the Chinese Government which 
knowingly returned North Korean refugees to certain death.
    Many of the individuals who brazenly treated North Korean 
women like animals and engaged trafficking are also Chinese 
Government officers.
    It is not befitting of a country that claims to be a great 
power to murder people and aid and abet the appalling crime of 
trafficking women. The People's Republic of China must first 
recognize its past wrongdoing. It must recognize North Korean 
refugees who have been deprived of their freedom as refugees.
    Kim Jong Un and the North Korean regime, which clings to 
its hopeless and absurd policies, cannot be allowed to exist 
any longer. If the Chinese Government continues to cooperate 
with the North Korean regime it will only become the object of 
scorn to the entire world.
    As stated in international law, our fellow North Korean 
brothers and sisters are refugees. I respectfully call upon the 
Chinese Government to respect and abide by its obligation under 
international law.
    I would like to thank you, God, for granting me the freedom 
to speak my mind. I would like to ask all of you to not ignore 
our suffering by questioning the truth of our stories. North 
Korean defectors including myself will continue to speak out 
until the day Kim Jong Un is brought to justice in an 
international court for his atrocious crimes.
    I would like to ask the United States Congress and the 
entire world to listen to our voice and to help us in every way 
that you can.
    Thank you.
    [The prepared statement of Ms. Jo follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
                              ----------                              

    Mr. Smith of New Jersey. Ms. Jo, thank you very much for 
your testimony.
    We do have five votes that have been called to the floor of 
the House. It will take about approximately 25 minutes. There's 
a 5-minute vote after this initial 15 so we will stand in 
recess for about 25 minutes.
    I apologize for the inconvenience. Then we'll come back and 
conclude. Maria, you'll be next and then we'll go to questions. 
So I hope your calendars permit you to remain.
    We stand in recess.
    [Recess.]
    Mr. Smith of New Jersey. The hearing will resume and, 
again, I apologize for that lengthy delay because of the votes.
    I'd like to now introduce Maria Werlau and the floor is 
yours.

 STATEMENT OF MS. MARIA WERLAU, PRESIDENT, FREE SOCIETY PROJECT

    Ms. Werlau. Thank you, Mr. Chairman, for the opportunity to 
offer this testimony. Please allow me a few words about the 
grave situation of Baptist Pastor Mario Felix Lleonart, husband 
and father of two children, arrested Sunday at noon a few hours 
before President Obama arrived in Cuba.
    He's quite ill and suspicious of a needle prick he received 
in the arm from a stranger some days ago after which he 
developed some puzzling symptoms that have worsened. I have 
photos of his arrest as well as of his arm. His wife is under 
arrest.
    I've been in communication with her through her cell phone. 
The pastor has refused to eat or drink since yesterday morning.
    He does not feel safe in Cuba and I believe he's not safe 
in Cuba, where several activists have died in the state-run 
facilities in questionable circumstances and surrounded by the 
secret police.
    I call on President Obama and Secretary Kerry to request 
his immediate release and that he be brought to the United 
States with his family for immediate medical treatment, 
hopefully, with our huge official delegation or before it 
leaves Cuba.
    Now, on the topic of this hearing I will speak about Cuba 
based on considerable research over the last 6 years on human 
trafficking and exploitation. Let me briefly address some key 
issues the committee is considering.
    One: What is Cuba's track record, particularly in the last 
year in fighting human trafficking? I consider four main 
sources of human trafficking in Cuba. One is the export 
services of temporary workers; two, forced labor and sex 
trafficking; three, state-sponsored or forced migration; and 
four, the export sale of human and body parts.
    Cuba derives most of its revenues from the export services 
of temporary workers and forced migration. Our State 
Department's Trafficking in Persons Report address only two of 
these aspects for Cuba and, in my view, disappointingly. They 
do not pay attention to the other two.
    Contrary to fighting human trafficking, the Cuban 
Government is itself likely one of the largest and most 
profitable traffickers in the world.
    This business had been growing enormously and 
exponentially, especially in the last 10 years. What makes the 
Cuban case unique as well as astounding is that trafficking is 
a huge operation run through numerous state enterprises with, 
for the most part, accomplices, participants, sponsors, and 
promoters all over the world, including from well-known 
corporations, large foundations, key international agencies, 
and some of the leading world democracies, including ours as of 
late.
    Regarding the export labor force, it is quite diversified 
and consists of generally highly-qualified temporary workers, 
doctors and other health professionals, teachers, sports 
trainers, engineers, construction workers, entertainers, 
sailors, scientists, architects, et cetera. They can be 
dispatched overseas at short notice and are oftentimes sent as 
part of labor brigades. The greater part of their wages go to 
the Cuban Government. Many different services are sold through 
large state entities including two very large health 
conglomerates and 84 smaller state entities. It is a huge and 
expanding business. The latest official data for the year 2011 
indicates that Cuba's export services net of tourism grew from 
$1.5 billion in 2003 to $7.8 billion in 2011.
    Last year, reports from Cuban officials put the annual 
figure at around $8.2 billion. From tourism Cuba derives, to 
give you a comparative idea, $2.5 billion a year. So it's over 
three times that. It's impossible to tell how many Cuban 
workers are involved from conflicting official reports. But 
around 65,000, perhaps more, are said to serve in 91 countries, 
75 percent, or close to 50,000, are in the health sector. This 
is according to different reports from Cuban officials; it's 
not official data published.
    Cuba's business of exporting indentured workers and its 
unique brand of health diplomacy are only possible in a 
totalitarian state in which a pool of guaranteed captive low-
paid workers can be exploited as exportable commodities. 
Violations are too numerous to list here but amply documented 
in my published work and more detailed in my written testimony.
    In my mind, there is no doubt the practice constitutes a 
form of slavery and violates many international agreements to 
which Cuba and most countries where these workers serve are 
parties, including the trafficking protocols.
    Regarding state-sponsored or forced migration, this is not 
a usual form of human trafficking, by a state per se, but it is 
taking place at a very large scale and results from direct and 
indirect practices of the Cuban state that force, push, and/or 
enable its desperate citizens to migrate in the tens of 
thousands each year.
    It alleviates political and economic pressure on the 
government and generates billions in revenues from assorted 
fees and assistance from the ever growing diaspora, which just 
from the United States alone is estimated to be sending over $5 
billion a year.
    I have anecdotal evidence of elaborate criminal schemes run 
covertly by operatives or agents of the regime that merit 
further investigation by the appropriate authorities.
    I understand that certain U.S. law enforcement agencies 
have looked into this and have specific cases under 
investigation.
    The mass migration has been fueled in recent years by three 
factors: One, a huge outflow through Ecuador, a close ally of 
Cuba, starting in 2008, whereby thousands have made and are 
making their way north by land into the United States, where 
they are mostly automatically admitted; two, by changes to 
Cuba's migration law beginning January 2013 permitting travel 
without an exit permit; and three, beginning in 2009 by the 
Obama administration's comprehensive relaxation of travel and 
remittance regulations under the embargo.
    I estimate that in 2015 alone at least 92,000 Cubans were 
admitted into the United States--43,159 during Fiscal Year 2015 
by all points of entry without prior entry visas.
    Since 2008, at least 325,000 Cubans have come, with the 
trend rising exponentially in the last few years. With those 
numbers we can only imagine that revenues will only grow for 
the regime to solidify itself and continue repressing.
    Regarding forced labor and sex trafficking, the following 
are also taking place in Cuba. The prostitution of girls just 
16 years old on the streets, but also in schools with the 
participation of teachers and even the complicity of 
authorities, apparently maintained to increase Cuba's 
attraction as a tourism destination.
    The uncompensated labor of prisoners and child labor, 
particularly in agricultural fields; the government states that 
this is voluntary labor. Because most Cuban workers, migrants, 
minors put to work, and prostitutes seemingly consent to the 
practice for different reasons, this doesn't mean that it's not 
trafficking.
    It's important to clarify that the trafficking in persons 
protocol states that the consent of the victim to the intended 
exploitation is irrelevant once it is demonstrated that 
deception, coercion, force or, other prohibited means have been 
used.
    In addition, the definition of trafficking in persons 
includes the abuse of power or of a position of vulnerability 
or of the giving and receiving of payments or benefits to 
achieve the consent of a person for the purpose of 
exploitation.
    Finally, number four, Cuba has been exporting, at least 
since 1995, an average of $30 million a year in blood products 
in international markets mostly, it seems, to state entities 
within countries that are close allies.
    This is done without consent from volunteer or coerced 
donors in Cuba tricked into believing their donations are for 
altruistic purposes. In the 1960s, Cuba drained the blood from 
prisoners awaiting execution, including at least one American, 
Robert Fuller, in October 1960. It reportedly sold it to 
countries such as Vietnam. We, at Cuba Archive, have also 
published reports of the sale by Cuba to Brazil rising to 
around $80 million in 2013 of human tissue glands and other 
body parts of unknown origin as well as of unreported cases of 
suspected deaths or the plundering of bodies to harvest body 
parts that are suggestive of state sponsorship. We strongly 
encourage our Government and that of other countries to 
investigate this.
    The committee also seeks to examine: Are there glaring gaps 
in prosecuting traffickers, preventing trafficking or 
protecting victims? Because in this case the main perpetrator 
of the trafficking is in fact the Cuban state directly or 
indirectly, rather than gaps, I see a huge black hole into 
which the victims fall systematically, and mostly hopelessly, 
with little international awareness or support.
    In Cuba, there is no legal protection for victims or 
individual or collective rights outside of those allowed by the 
Communist Party. What's worse, that these victims serve a 
dictatorship all around the world in blatant violation of 
international law is an open, accepted, and even encouraged 
fact.
    Few international mechanisms of protection and redress have 
been put in place. Some of the temporary workers find safe 
haven in the countries where they serve and especially health 
professionals to the U.S. under the Cuban Medical Professional 
Parole Program, that since 2006 has welcomed 7,117 applicants 
through 2015.
    The program, which Cuba fiercely denounces, is under review 
now as part of the normalization of our bilateral relations 
with Cuba.
    Meanwhile, we, our own Government, our own country, has 
started to support or cooperate with Cuba's medical brigades in 
Haiti and last year in the West African countries fighting 
Ebola.
    As we have seen above, it is hard to understand how any 
informed analysis of Cuban reality could lead to the conclusion 
that Cuba has improved its record of human trafficking.
    My written testimony is much more extensive and includes 
substantive data. I respectfully request that it be taken into 
consideration and entered into the record.
    Thank you.
    [The prepared statement of Ms. Werlau follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith of New Jersey. Ms. Werlau, thank you very much 
for your testimony. Without objection, your statement and all 
of the others will be made a part of the record in their 
entirety, as I indicated earlier.
    Let me ask you, beginning first with Ambassador Lagon--and 
again, thank you for your extraordinary insights on Cuba. I 
think your testimony is the most expansive authoritative that 
we've had to date.
    And I have, as Ambassador Lagon knows, chaired dozens of 
these hearings both while we were preparing the Trafficking 
Victims Protections Act and two of its follow-ons that I 
authored, and the oversight hearings that we held both before 
and after the TIP Reports were handed down by State that you 
have provided.
    I've read the TIP Report for Cuba as well as the other 
countries in question. There is much that you have suggested by 
included that they need to seriously take under their wings 
including that statement you said about the child sex tourism 
and the confidential report by the Royal Canadian Mounted 
Police in which you said that Cuba is one of the primary 
tourist destinations for sex tourism that includes minors of 
both genders.
    It appears that the child prostitution rings are maintained 
and promoted to increase Cuba's attraction as a tourism 
destination. Over 1 million Canadians, you point out, visit 
Cuba each year.
    Ambassador Lagon, you might want to speak on this as well 
because when Cuba was a Tier 3, obviously we knew much of this, 
but we didn't have that report which said that this was 
occurring.
    I remember being at the U.N. Human Rights Council with a 
great leader of Cuban human rights who had actionable 
information about what was happening with child sex tourism in 
Cuba.
    As a result of this, some Cuban thugs knocked him out. A 
van pulled up and hit him right in the jaw and knocked him. So 
this is a land of the gulag and a Potemkin village as well and 
it's about time our State Department and our President takes 
seriously this substantive information. So you have provided 
that and you might want to speak to that, Ambassador Lagon.
    You were the one who made sure that the TIP Report finally 
at long last looked at the gendercide that has occurred in 
China and the missing girls in China, and we are talking about 
tens of millions of girls, who are the victim of sex-selection 
abortion and the disparity which is again noted in this year's 
TIP Report of 117 boys to 100 girls.
    It happens nowhere else except perhaps in India. But it's 
not the normal process. They are exterminated because they are 
girls. And but it has led to the consequence of sex trafficking 
that has grown exponentially as that lack of or that dearth of 
women in the country have just set up this skewed sex male to 
female ratio.
    If you would speak to that, Ambassador Lagon, because it's 
not getting better in China. It appears to be getting worse. I 
spoke recently at NYU-Shanghai and I spoke extensively to the 
issue of the missing girls and the nexus of that with 
trafficking.
    If you could also speak to Vietnam. There was a great deal 
of hope by some that when there was a rapprochement with 
Vietnam when the bilateral trade agreement was consummated with 
Vietnam that human rights might break out.
    I was a skeptic at the time. Sadly, my skepticism has been 
affirmed as they are in a race to bottom with China and places 
like North Korea when it comes to human rights in general, 
trafficking, particularly labor trafficking in Vietnam, if you 
could speak to that.
    And finally, Ambassador Lagon, China had 35 convictions in 
a land of 1.2 billion people with a huge labor and sex 
trafficking problem.
    As we know, the reform through labor elimination has not 
happened and I've been in one of those camps, Beijing Prison 
Number One, where 40 Tiananmen Square activists were held and 
forced to labor.
    They have just put a different sign out in front and they 
continue to use that exploitation and yet that's not reflected 
in China's tier ranking, having gotten a passing grade.
    But China had 35 convictions. Thailand, a Tier 2 country, 
had 151, Cuba 13 convictions and, Malaysia a mere 3, dropping 
from nine in the previous year to three.
    So they even trend in the wrong direction. So Thailand has 
been singled out as Tier 3 and, of course, convictions is not 
the only barometer but it's certainly a very useful one.
    And yet, Malaysia, China, and Cuba, just to name three, 
have far fewer in terms of convictions and yet they were placed 
on the Tier 2 Watch List.
    Could you try to explain that for us?
    Ambassador Lagon. Sure, and a welcome set of homework 
assignments to address on these.
    Cuba, first of all, I said in my testimony and a bit more 
elaborately in the written version, that one of the reasons 
that I think the ranking for Cuba in last year's report was 
suspect is this proactive effort to sell the sex market in Cuba 
to an international buyer base.
    I wrote a piece in the Washington Post on February 1 saying 
that it's time to address the sex trafficking issue through 
dealing with demand.
    And it's one thing when there are so-called johns that are 
let off the hook while those who are in prostitution or who are 
trafficked are punished. But when a state is involved in a 
proactive policy to encourage people to travel and treat women 
as commodities, it is a hazard zone for trafficking.
    As for Vietnam, Vietnam is part of a picture of a U.S. 
policy of cultivating relationships with illiberal states that 
are ostensibly moving in the right direction to counterbalance 
China.
    I'm all in favor of working to dialogue with Malaysia, to 
dialogue with Myanmar, to dialogue with Vietnam in that 
context.
    U.S. foreign policy should not let such nations off the 
hook on human rights. We need to look very carefully at 
Vietnam.
    Corruption, limits on free press and civil society, lack of 
basic protections for migrants entering into Vietnam and 
leaving, these make for great dangers for human trafficking and 
Vietnam has had a Tier 2 ranking for 4 years and it's really 
worth asking whether the implementation is going farther.
    I had the honor of hosting the Deputy Secretary of State, 
Tony Blinken, to speak at a conference we had on democracy 
promotion at Freedom House in October. He noted he loved 
working with Freedom House and expected me to be a scold. I was 
on Vietnam because the picture he portrayed is really rosier 
than is deserved.
    Now, on China, first of all, with respect to the population 
policy and a second important factor, the treatment of North 
Korean refugees, their drivers that make for a danger for 
gendered human trafficking, namely the longstanding population 
policy limiting the number of children and then both policy and 
culture favouring male babies has created this kind of 
insidious form of the gender gap.
    And even if population policy appears to be moving in the 
right direction, in that there is somewhat more choice for 
people to choose having more than one child, there's still a 
big residual problem that's a driver of sex trafficking and the 
kind of human trafficking that is bride sales.
    But when it's combined with the treatment of North Koreans 
not as refugees but as economic migrants who if sent back to 
North Korea, as my colleague on the panel here indicated, would 
be punished, that together creates a situation of a danger for 
sex trafficking.
    Finally, on the number of convictions--I have said here and 
elsewhere that despite the great wisdom that you and others had 
in the Trafficking Victims Protection Act and the rather 
similar Palermo Protocol there's a heavy emphasis on 
convictions in those. Oftentimes, some of the most illiberal 
states in the world over interpret that and they have what one 
might call the cruel law and order version of an anti-human 
trafficking policy.
    Malaysia, China--these are the very states that you would 
expect to tilt toward a law enforcement approach over a 
survivor re-empowerment policy. But China's conviction rate is 
utterly anaemic, as you say, and taken with the problems of 
people when they move to opportunities in the city, losing 
their social services and the gender disproportion that you 
were raising and the fact that the so-called elimination of the 
reform through labor policies as a chimera, I think China 
deserves great scrutiny and ought not to be given a pass in the 
report.
    Mr. Smith of New Jersey. Professor Lagon, thank you very 
much.
    Mr. Smith, what would happen if Burma did receive a 
downgrade, especially, would it affect the military? As you 
point out and I couldn't concur more with your statement, that 
Malaysia and Burma need to be downgraded just based on the 
record.
    The record is overwhelming and hopefully State will look at 
your analysis as well because I think you lay it out in great 
detail. But what would happen especially in Burma because we 
know the impact that the military has on that country.
    Mr. Smith. Yes, I think that if Burma or Myanmar is 
downgraded to Tier 3 this would send a very clear message to 
the military that it needs to shape up with regard to human 
trafficking, that forced labor is completely unacceptable, and 
that they have to do more.
    I think there may be those voices out there who would 
suggest that a downgrade from Myanmar would somehow disrupt the 
political transition. We would disagree with that notion.
    Myanmar's people have struggled very long and hard to 
ensure the forces of democracy move forward in the country and 
but apart from that, as I mentioned before, the situation now 
has the optics of democracy but there is a certain 
authoritarian system still at play in the country and the 
military has ensured that the democracy that does take hold 
that they have a very active role in that.
    So I guess, in short, a downgrade for Myanmar would send a 
very clear message to the military that it needs to cooperate 
with the new NLD government to combat human trafficking and we 
feel that that would be the wisest course of action. Thank you.
    Mr. Smith of New Jersey. Last year's TIP Report noted that 
the demobilization of some 376 child soldiers from the 
military. But does the military's practice of recruiting child 
soldiers continue? Is it a replacement? Have some of those kids 
perhaps aged out?
    Mr. Smith. The use and recruitment of child soldiers 
throughout the country does continue, unfortunately. This is 
continuing not only within the Myanmar Army but also within the 
Border Guard Force and the non-state ethnic armies.
    Conflict is continuing particularly in the north of the 
country and as a result both the ethnic armies and the Myanmar 
army are seeking to increase their troop strength and in this 
sort of perverse recruitment process they believe that 
enlisting children within the military somehow helps them 
achieve that objective.
    There's been little to no accountability. In fact, last 
year the Myanmar authorities only prosecuted one civilian for 
the recruitment of children and the recruitment process is 
happening throughout the country.
    Mr. Smith of New Jersey. Let me ask you, with regard to 
Malaysia's plan to deal with the thousands of Rohingya refugees 
being detained in Immigration Detention Centers have the 
refugees been screened for trafficking as far as you know and 
why are NGOs and UNHCR not allowed to visit them?
    Mr. Smith. No, sir, we do not believe that they have been 
screened for human trafficking, and while Malaysia was getting 
some international praise for finally allowing people who were 
stranded at sea to disembark, they did shuffle them very 
quickly to detention where they remain today.
    As far as we understand, there is no good reason why the 
UNHCR or other service providers would not have access and one 
additional concern is that refugees, asylum seekers in 
Malaysia, many of whom have endured horrific experiences of 
human trafficking, now have a very difficult time registering 
with the UNHCR and this opens them up to other forms of 
exploitation.
    Mr. Smith of New Jersey. And one final question on 
Malaysia. As I noted, three convictions down from nine the year 
before, now I would agree with Ambassador Lagon, the other 
aspects of the TIP initiative, prevention, prosecution, and 
protection are all extremely important, mutually reinforcing 
provisions of a coordinated strategy.
    If you're serious about law enforcement, you need to look 
at convictions and it's only three for Malaysia.
    But my question, the State Department upgraded Malaysia 
last year in part for a trafficking victim pilot program. Many 
of us think it was all about the TPP, we think that something 
they should have emphasized was to allow victims to leave 
shelter and detention and work.
    However, subsequent information has shown that exactly none 
of the four victims who were cleared to participate in that 
program were able to do so, mostly because of the Malaysian 
Government's failures.
    Are you aware of any victims free to leave detention and 
participate in a work pilot program?
    Mr. Smith. We are not aware that that is occurring in 
Malaysia at all.
    Mr. Smith of New Jersey. Thank you.
    I'd like to ask Ms. Jo, if I could. You know, the Chinese 
Government has signed the refugee convention. I, and others on 
this subcommittee have repeatedly asked the Chinese to honor 
the provisions of that refugee convention, that treaty, and not 
send people back to North Korea where they are usually either 
killed or certainly sent to prison. We've had several witnesses 
previously who have actually been trafficked who told their 
stories before the subcommittee.
    They made it across the line into China and thought they 
were home free only to find that they were then subjected to 
the cruelty of modern-day slavery. And I'm wondering has there 
been any diminution of the exploitation of trafficking? Because 
it seems like they get hurt either way.
    If they're sent back to North Korea they are incarcerated 
or killed and if they stay in China they are trafficked. Has it 
gotten any better or is it still as bad as it has been?
    [All of the following witness's answers were given through 
an interpreter.]
    Ms. Jo. Just 3 days ago I had a phone conversation with 
some North Koreans currently residing in China and compared to 
the time I left North Korea compared to the time I left China 
in 2008 they tell me that there has been no change.
    Basically, what we know about North Koreans today is that 
there are some black market activities and people can make 
money out of this black market activities.
    However, in order to be involved in these markets they do 
need money. They do need capital. In order to do that, they 
have to cross the border into China.
    If they are apprehended by the Chinese authorities they're 
subjected to very aggressive interrogation and very aggressive 
treatment.
    They're actually separated from the regular Chinese prison 
population and they're subjected to treatment that is in many 
ways similar to the treatment that they suffer if they're 
forcibly returned to North Korea.
    Since January of this year, we have been able to rescue 13 
North Koreans. Two North Korean women as far as we know were 
forcibly returned to North Korea where they were subjected to 
interrogation by the state security department. This is North 
Korea's main internal security agency.
    They were sent to a so-called mobile labor brigade and as 
far as we know they may have well been sent to a political 
prison camp because it was disclosed during the interrogation 
that they came across, for example, South Koreans.
    So basically there's a group of four who need rescue who 
were apprehended. We know that the time that it takes to return 
apprehended North Korean refugees from China to North Korea is 
25 days.
    It used to be about 17 days. As you can see, there isn't 
such a big difference compared to the time when I was there.
    Mr. Smith of New Jersey. In the TIP Report that we have 
under scrutiny today where China falsely was given a Tier 2 
Watch List designation, they point out that Chinese women and 
girls are subjected to sex trafficking within China.
    They are typically recruited from the rural areas and taken 
to urban centers. Well-organized criminal syndicates and local 
gangs play key roles in the trafficking of Chinese women and 
girls and in China.
    Victims are recruited with fraudulent employment 
opportunities and subsequently forced into prostitution. Girls 
from the Tibet Autonomous Region are reportedly sent to other 
parts of China and subjected to forced marriage and domestic 
servitude, and it goes on. A tale of indictment, really, about 
how China is dealing with it.
    And we get to the protection part. It says the government 
did not undertake adequate efforts to protect victims and did 
not directly provide data on the number of victims identified 
or assisted in services it provided.
    And yet, they didn't get Tier 3. It's almost comical except 
that it's a tragedy. My question to you is are there any 
services that you know of for either indigenous Chinese women 
or refugees if they are identified as a trafficking victim?
    And you mention in your testimony that Chinese Government 
officials are involved in the trafficking of women. Are they 
making profits over that cruelty or are they just grossly 
indifferent?
    Ms. Jo. The surveillance in the border areas has been 
increased. There are numerous road blocks. There are numerous 
searches.
    Frankly, it is impossible for an ordinary individual to get 
through all of these check points and road blocks and that is 
why actually Chinese policemen, Chinese cops take many of these 
individuals in their patrol cars and thus it is law enforcement 
agents in China who are involved in this process.
    Actually, in our case as well, we paid one of the locals to 
help us out and they told us that they got in touch with the 
local cops, the local law enforcement agents who participated 
in the process and he assured that we got out.
    There are no Chinese groups, institutions, or organizations 
that rescue women or children who are victimized by human 
traffickers. The only ones who do this are American or South 
Korean missionaries who make phone calls and invest in this 
operation of rescuing victims of human trafficking.
    Mr. Smith of New Jersey. Ambassador Lagon, does that 
comport with what you knew as Ambassador-at-Large during your 
time and currently now as head of Freedom House?
    Ambassador Lagon. Yes. The problem in China is a tilt away 
from victim services in general. For those who are North 
Koreans it's not only China's flagrant failure to live up to 
its obligations under the refugee convention but also a lack of 
existing help.
    In the region, some of the best equipped countries, such as 
Japan, have not stepped up to the plate to provide the fullest 
of victim services such as translation for women who are in 
shelters, who are trafficking victims. But we're talking about 
a truly anaemic null set in terms of helping the victims, 
particularly those who are Koreans.
    Mr. Smith of New Jersey. Thank you. Let me ask Ms. Werlau, 
and before I go I just want to note that in the past we had a 
number of hearings.
    Suzanne Scholte actually brought some unbelievable 
witnesses--they were believable, because they were--but it was 
just astonishing to hear them speak of their ordeal coming out 
of North Korea into China, and one of those witnesses talked 
about a mother and a daughter.
    The daughter left, was trafficked. The mother went looking 
for her and she was trafficked, and only by the grace of God 
and some very humane people were both of them able to find 
freedom.
    But it was harrowing in terms of the experiences that they 
relayed to our subcommittee previously. So I want to thank Ms. 
Scholte for arranging that in the past.
    It was extraordinary and, again, it's unabated, unchanged, 
as Ms. Jo just said.
    Ms. Werlau, if I could address some of the Cuba issues, the 
Trafficking in Persons Report says the government took no 
action to address forced labor.
    If you say you're going to do nothing and take no action, 
it doesn't exist, which is foolish beyond words. And yet they 
were upgraded from Tier 3 to Tier 2 Watch List.
    So my question--if you could speak to it--you did in your 
testimony and but it would be worth some reiteration because 
you did speak about the whole issue of doctors and others being 
compelled and the huge profits gleaned for the Cuban 
Government--what happens if a physician or health professional 
says no, I'm not going to be deployed somewhere around the 
world, and how much money does this actually bring in to the 
government by forcing them to do so?
    Ms. Werlau. Let me preface this by saying that for 2 years 
in a row the State Department Office for Trafficking in Persons 
has called me to inquire specifically about the situation of 
the doctors and I have had long conversations that are partly 
reflected in the report.
    But they have sustained for 2 years in a row that these are 
``allegations.'' Yet, I have interviewed dozens of doctors who 
don't know each other, who have served in different countries, 
that repeat the same thing over and over.
    We have more than 7,000 testimonies taken in our Embassies 
all over the world and before these visas are issued for the 
Cuban Medical Professional Parole Program these people are 
interviewed.
    So I told them, go to the Embassies or just get on a plane 
and go to Miami and find these doctors walking around. They 
will tell you that this is not an allegation. This is happening 
systematically.
    So I'm dumbfounded by this approach.
    Mr. Smith of New Jersey. So they're hiding in plain sight?
    Ms. Werlau. There are thousands of these doctors all over 
the world enduring these conditions and this situation. The 
report says that the Cuban Government is the dominant employer.
    What it doesn't say is that it's a sole employer of medical 
professionals. So these people have no choice. But, you were 
asking about what happens if doctors refuse to serve.
    I've asked about that and some doctors have told me that 
they're punished, they're sent to a little clinic in the 
mountains, et cetera.
    But most doctors want to serve and there's a corruption 
going on within the state mechanisms employed to recruit these 
doctors because certain destinations are more palatable than 
others.
    It's certainly better to go to Portugal or Uruguay or even 
some areas of Brazil than to go to the jungle in Central 
America or remote areas of Africa.
    So actually, this goes back to these people wanting to 
serve because they want to improve their lot in life and 
whereas a doctor in Cuba earns around $60 a month, they then 
get a little bonus in hard currency, they're able to see the 
world, they're able to save some money to repair the roof in 
their house. When they gp back home, they get certain rewards, 
et cetera.
    So it's a unique situation.
    Mr. Smith of New Jersey. Just ask you with regards to the 
child sex tourism. The newest law that just has been signed is 
called the International Megan's Law and it does a number of 
things, but the first thing it takes our database of Megan's 
Law and every state has it and anyone who seeks to travel if he 
or she--and they're almost all men--is a convicted sex 
offender. We notice the country of destination within about 3 
weeks of that departure and the penalty for not giving us--us 
being the U.S. Government--that information is very 
significant, up to 10 years in prison, and if they travel 
they--at least the country--can either deny the visa or be very 
much more vigilant about their presence because the propensity 
to recommit these crimes is very high.
    It also establishes the hope within this administration and 
the next one to set up a reciprocity so we know when these 
folks are travelling to the United States.
    That's not a bill, it's a law. And the hope is that now 
that there's an opening with Cuba that when anyone seeks to 
travel to Cuba we know it's been a destination for child sex 
tourism.
    The man I mentioned earlier, Frank Calzon, the one that was 
knocked out by a sucker punch, he had serious documentation of 
this and my hope is that our new Embassy will be robust, 
aggressive in trying to track down the parameters of this 
horrific entanglement of pimps and the government, often one 
and the same, and does not whitewash it, which I'm very worried 
that they may do.
    So if you would speak to the issue of child sex tourism and 
sex tourism in general to Cuba.
    Ms. Werlau. That's not my area of expertise. However, I 
have read about it, talked to people about it, and I reference 
in my written testimony an amazing documentary that was filmed 
in Cuba and that has great evidence, one everybody should see.
    The person who filmed it was then put in prison by Cuba and 
it took several years before the Spanish Government was able to 
get him out.
    So this is happening and he has the evidence and I think 
it's a horrific thing that is only going to probably increment 
with the increase in tourism we're seeing in Cuba. And now, you 
know, probably people from the United States will be 
participants just as the Italians, Canadians, and others that 
are going to Cuba for this.
    Mr. Smith of New Jersey. I'd like to yield to our 
distinguished colleague, Congressman Clawson, from Florida.
    Mr. Clawson. Sorry for being late. I had some other 
meetings; you know how it is with a double, triple booking. Got 
another one waiting.
    Thank you for coming. I wanted to express, and I'm sorry I 
missed it. So what I'm going to say and you reaction is 
probably going to be redundant from what's already been said 
today.
    Of course, I support the chairman in his efforts to reduce, 
eliminate trafficking globally. Like a lot of things in this 
world I feel like the economic power of the United States could 
have a bigger influence than it actually does.
    Whether it's in these matters, whether it's dealing 
intellectual property, which of course is not anywhere near as 
serious as what we're talking about today or anything else. If 
we're almost one-third of the global GDP and everybody wants to 
have access to our markets, if we really wanted those folks 
that wanted access to our markets to eliminate trafficking I 
believe that they could do so.
    And my view has always been, as I've studied up on this for 
Chris' subcommittee, that to the extent that we allow folks 
that aren't serious about ending trafficking to participate in 
our marketplace we send a message that's not even a mixed 
message but rather if you're an important spot economically for 
us as in one of these trade deals or if you're an important 
spot in terms of global diplomacy, meaning in the Middle East 
or in Cuba, then none of these things about trafficking really 
matter to us.
    And therefore what is the message that we send around the 
world to victims of this and whether we really care. And so I 
want to make sure that I showed up today and maybe that summary 
is off in some way.
    But I'd like to hear what you all's response is and, you 
know, in the context of what's going on in Cuba today or the 
trade deal or even the Iranian deal. It just seems to me that 
our interest and our commitment to stopping trafficking always 
takes a back seat when something important comes diplomatically 
either for trade or for other things that the administration 
might think is important.
    Ambassador, you want to start? Am I wrong? Am I overstating 
the problem here or my position on this?
    Ambassador Lagon. No, you're not. First of all, I agree 
with the premise that one has to look at this as a phenomenon 
in a market, and where something heinous is going on.
    I don't believe that globalization inevitably needs to lead 
to slavery but it requires open eyes, and I think we're in this 
mode in the United States and we feel this very strongly at 
Freedom House that we somehow think we have less influence 
than, you know, than we have.
    Mr. Clawson. We have more. We have more, right?
    Ambassador Lagon. This is a situation where the driver of 
human trafficking is the fact that for the trafficker, whether 
it's the recruiter or the person who is locking someone in a 
brothel or someone who is actually supervising forced labor, 
that person feels that they can make huge profits off the backs 
of enslaved people--essentially enslaved people--and have very 
little prospect of being punished. That's a market force. We 
need to change that, make it more likely that they will be 
punished.
    And while labor trafficking is 75 percent of the incidence 
of trafficking overall in the world, more money is made on the 
backs of those who are sex trafficked and you see both of these 
phenomena in places like Thailand, Cambodia, and so on.
    Mr. Clawson. Can I jump in on you for a minute?
    Ambassador Lagon. Sure.
    Mr. Clawson. Now, if I were running a manufacturing 
business exporting from the Midwest, I would say in addition to 
what you've said, folks from Midwest factories lose their good-
paying jobs and we pay an economic price--at least an economic 
fairness price, if you will, in our country, while cheaters who 
may cheat in trafficking or any other way that they can cheat, 
get an economic transfer of welfare in some other country.
    Is that right? So there is losers here and there and all 
for a cheaper product, by the way.
    Ambassador Lagon. Well, it should be--it should be 
particularly galling to American citizens if they see jobs 
being exported elsewhere.
    If it's to a place where there is not only kind of cheap 
labor or even exploitative labor but in fact trafficked labor, 
I will say and said this earlier, that I favor the Trans-
Pacific Partnership and TTIP.
    But you need to do it with open eyes. So Malaysia, being 
kept viable to be part of the TPP, has a reason or a rationale 
for its ranking in the TIP Report makes no sense to me.
    I'm in favor of appropriately negotiated bilateral trade 
deals. But I noticed when in served as the anti-human 
trafficking Ambassador that there were opportunities the United 
States was completely throwing out the window to place leverage 
on states we were forming bilateral free trade arrangements 
with.
    Mr. Clawson. Could I ask you a question? Is there any 
example that you can think of where we have used our economic 
leverage, 30 percent of global GDP, to force people to behave 
with respect to trafficking, human rights, religious freedom?
    Ambassador Lagon. Sure, and your colleague sitting in the 
chair helped invent it. The Trafficking Victims Protection Act 
creates a situation where there is sanctions or threatened 
sanctions or threatened sanctions for Tier 3 countries.
    Mr. Clawson. Well, most of the time in practicality it gets 
ignored or am I wrong?
    Ambassador Lagon. This is true. That's why----
    Mr. Clawson. I mean, my point is we yak about it up here. 
We have all the power as the United States of America. We're 
the driver of global trade and people that cheat and therefore 
hurt kids, women, whoever, we don't do anything about it.
    Ambassador Lagon. We have the leverage. I've noted before 
the political scientists, Beth Simmons at Harvard and Judith 
Kelley at Duke have shown that in fact the TIP Report gets 
countries to change their laws.
    One case I can think of of moving a country was Cambodia 
being faced with Tier 3 ranking and thinking that it would--
having just gotten the introduction of forms of American aid it 
would get off.
    Now, I entirely agree with a longstanding critique offered 
by Chairman Smith that the sanctions on Tier 3 countries are 
not used and it's appalling.
    But that's an example of leverage working. Actually, there 
are many examples. I am personally an advocate of the global 
Magnitsky sanctions legislation which would target officials 
who are responsible for corruption and for human rights abuses. 
That really makes it painful for the people who are 
responsible. So you can, as you argue, place overall pressure 
in using leverage on a country. But you also can make life 
miserable for----
    Mr. Clawson. But let me interrupt just for a minute, 
Ambassador.
    You would agree with me that there's a whole lot of 
countries that run trade surpluses with us that abuse their 
people, correct?
    Ambassador Lagon. True.
    Mr. Clawson. Okay. Then we're not doing very well.
    Okay. Now, let me go to Cuba. Is--do you all do--does any 
of the witnesses here believe that the opening--that the 
economic awakening, opening, whatever we want to call it with 
Cuba right now, is that going to help or hurt in efforts for 
folks to get treated in a humane dignified way?
    Ambassador Lagon. If I may begin, but I really want to 
defer to my colleague, Ms. Werlau, I think that the record is 
clear that there have not been changes since the diplomatic 
opening in human rights in general.
    Anything more than the most minor economic reforms haven't 
changed a whit. At a previous hearing held by Chairman Smith 
looking at those rankings that were considered politicized in 
the 2015 Report, we heard witnesses from the State Department 
say now there's more information available from Cuba because 
we're having diplomatic dialogue with them.
    So we have better information and we can tell that they're 
Tier 2 Watch List rather than Tier 3. I think that's rich.
    Mr. Clawson. Ms. Jo? Thank you, Ambassador.
    Ms. Werlau. Respond on Cuba? Yes.
    Congressman, I have long favoured exchanges that make sense 
in policies that advance the interests of the United States and 
have for a long time argued that our policy toward Cuba, which 
I considered schizophrenic and contradictory in different 
aspects of it, needed a revision.
    However, I strongly feel that lending credibility, 
legitimacy, and impunity to a criminal dictatorship without 
conditions and making unilateral concessions is very troubling 
and counterproductive to our own interests.
    The idea that commercial engagement, including tourism, is 
going to bring about reforms in Cuba has already been tried. 
First, by the rest of the world that has been investing, 
trading, and sending tourists to Cuba for over 20 years since 
the fall of the Soviet bloc and of massive subsidies, and Cuba 
had to restructure its economy, et cetera.
    For example, more than 1 million Canadian tourists go to 
Cuba every year and this has been going on for years. I don't 
see a whole lot of difference between Canadian and U.S. 
tourists.
    And second, because there have been for years many 
exceptions to the embargo, including from 1988, the Berman 
amendment, that has allowed the free sale and exchange of 
informational material, videos, music, art work, et cetera. 
Yet, no Cubans can buy directly from the United States.
    It's the same thing with the agricultural products and 
medical products that have been exempt since 2000.
    The Cuban Government controls all those imports from the 
United States.
    Mr. Clawson. Let me interrupt. So are you saying there's 
going to be more or less trafficking of kids and women, et 
cetera with what we're doing now? More or less?
    Ms. Werlau. My prediction is more because there will be 
more tourists and will be participating and it's one state that 
is behind it, as I described the judicial system.
    Mr. Clawson. So the Melia Hotel chains from Spain on 
Varadero Beach and other places has not done anything but make 
the problem--I'm not disrupting, I'm just making sure we're 
clear.
    Ms. Werlau. I have found no instance of any reform from 
those exchanges.
    Mr. Clawson. And if the representative of the Obama 
administration were here today he would say what we've done 
ain't working so if we try this you'd be wrong and the rest of 
the folks up here would be wrong. Is that right?
    Ms. Werlau. Well, I think that what we've done was not 
working. As I said, the policy had many contradictions. It was 
schizophrenic and we were not able or not interested in pushing 
a multilateral approach that makes sense with our allies and 
partners, other democracies that would like to see and would 
benefit from having a stable and prosperous Cuba.
    Mr. Clawson. Anybody else, anything to add anything I'm 
missing here?
    Ms. Jo. I don't know about the Cuba. That's why I cannot 
answer your question. But I hope North Koreans can become open. 
So yes, if you're asking something for North Korea and I'd love 
to answer.
    Mr. Clawson. And go ahead, since we were--tell us about 
what you--if we were to open more trade with North Korea, in 
your opinion would that be more or less?
    Ms. Jo. What happens in North Korea nowadays is that if one 
is officially unemployed they have to go to jail.
    I believe that if North Korea were to open itself up to the 
outside world to South Korea in particular, this would create 
opportunities for North Koreans. There would be different 
standards.
    There would be less exploitation inside North Korea and 
since the situation inside North Korea would improve there 
would be fewer or no reasons for North Koreans to escape from 
their country and become the victims of exploitation elsewhere, 
in China in particular.
    There are many who fear the astounding cost of Korean 
reunification. They fear that we would need a lot of money to 
accomplish that goal.
    However, I have a different opinion. I think that both 
Koreas will be spending much less on their defense budgets and 
there would be significant amounts of money to be spent on the 
development of North Korea and North Koreans would no longer be 
victimized. They would no longer become the victims of sexual 
or labor exploitation.
    And I would like to ask the distinguished Congressman here 
today a favor, should I call it. I am a U.S. citizen now. I 
work hard. I go to school here in the United States. I pay my 
taxes. I try to do my best as an American citizen.
    There are, of course, many North Koreans who are still 
trying to escape. When change comes to North Korea, former 
North Koreans such as myself will be instrumental in teaching 
the people of North Korea about the freedom and opportunity 
that we enjoy here in the United States and that South Koreans 
enjoy in South Korea.
    And that is why I would like to respectfully ask you that 
you see to it that more North Koreans are accepted into the 
United States of America.
    Frankly, when we came here what truly gave us hope was the 
U.S./North Korea Human Rights Act, first passed in 2004. There 
have been two more enactments of that act in 2008 and 2012. But 
to this date we only have 194 North Korean refugees who have 
resettled here in the United States.
    I'm not going to name that particular country or those 
particular countries but it takes a North Korean refugee 
between 1 year and 1\1/2\ years in order to be cleared to come 
here to the United States.
    There are graduates, former North Korean refugees who 
graduated from Harvard University with law degrees. There are 
many bright South Koreans who could help.
    I would like to ask the distinguished congressmen for their 
help in ensuring that we are able to bring more North Korean 
refugees here to the United States of America.
    Thank you very much.
    Mr. Smith of New Jersey. Thank you, Ms. Jo.
    Mr. Clawson. Thank you, Ms. Jo, for the Korean viewpoint, 
and Ms. Werlau, thank you for the Cuban summary as well from 
you. Appreciate it. And Ambassador, for the global view.
    Yield back. Thank you
    Mr. Smith of New Jersey. Mr. Clawson, thank you very much 
for your excellent questions and for being here and for your 
ongoing concern. It's just deeply appreciated.
    Let me just conclude. A couple of final questions, if I 
could. As we all know, and I mentioned it before, Raul Castro 
said there are no political prisoners; give me a list of 
political prisoners and I will release them before tonight 
ends.
    That's the English translation of the Spanish and Jim 
Acosta, thank God he asked that question because it's one of 
the few times any of the Castro brothers have ever been asked a 
serious question about human rights. The culture of denial 
which we see now on the trafficking side, no forced labor, they 
trivialize if they even respond to any questions about sex 
trafficking, my hope is that there will be a much more robust 
effort by the TIP office.
    And I think while they may get it right, hopefully as it 
goes up the ranks they will do their work to ensure that that 
Tier 3 designation, which I think is absolutely warranted based 
on the record, is conveyed again to the Government of Cuba and 
I do hope they listen to you even more carefully, Maria, as you 
convey these important points to them at the TIP office itself.
    I would ask Ambassador Lagon, we know that India has had 
serious trafficking problems, sex and labor trafficking, and 
amazingly even with regards to the T visa, which we created in 
the Trafficking Victims Protection Act of 2000, that there has 
been inability to travel by those individuals who have obtained 
the T visa, which then takes our whole process and says it's 
somehow less than authentic.
    Your thoughts on that? Because India certainly has a 
serious trafficking problem that I think is grossly under-
appreciated and under-recognized.
    Ambassador Lagon. Well, India is often considered a great 
success story of democracy. But there are important ways, 
whether if you're a Dalit, other unfavored caste, or women, you 
don't have full access to justice.
    There have been some troubling things that I've seen over 
time. When I was the head of the TIP office at State it was 
really remarkable to me.
    If you looked at countries that had large numbers of guest 
workers abroad, the great heroic example was the Philippines, 
whose diplomatic services fought really hard for the rights and 
the protection of their migrant workers abroad, running 
shelters in every one of their Embassies, they would always 
meet with me.
    Indian diplomats never ever in any country I travelled in, 
particularly in the Gulf, would confer about that. They were 
more concerned about the remittances. Now, that was then.
    When it was discovered that official personnel at a 
multilateral institution for India was complicit in human 
trafficking, the Government of India was truly intransigent 
about cooperation with justice.
    If it is indeed the case that those who have a T visa are 
harassed, that is a failure to look out for your citizens and 
their access to justice.
    And so while India's a success story in many ways, we 
should be concerned and remains the demographic of the human 
trafficking problem in the world.
    Mr. Smith of New Jersey. Ms. Werlau, in her testimony, said 
that the Cuban Government is likely one of the largest and most 
profitable trafficking promoters in the world. Does that 
comport, again, with your sense of Cuba?
    Ambassador Lagon. Well, there's kind of a correlate of the 
main theme of my testimony. The main theme of my testimony is 
that democratic governance, rule of law, access to justice--if 
they are in place in a country it's more likely that country 
will do a good job fighting human trafficking.
    At the other end of the spectrum, if it's not only an 
autocracy but a command economy with an intrusive state-led 
role and forms of forced labor or punitive labor particularly 
against those who are not favoured by the government that are 
institutionalized, that's quite likely to be a driver of human 
trafficking. The Trafficking Victims Protection Act, as you 
shaped, emphasizes the complicity of government officials in 
human trafficking.
    Well, if we look at some diplomat who is engaging in the 
abuse of their domestic servant, that's complicity. But if a 
government has policies which are in fact contributing to 
running forced labor, that's the most flagrant form of state 
complicity that you can see.
    Mr. Smith of New Jersey. Is there anything further that any 
of our witnesses would like to say today--any further insights, 
comments?
    If not, I do want to thank you for your extraordinary 
testimony. I hope that the U.S. Department of State and 
particularly the new Ambassador-at-Large, who I think is a very 
honorable person, Susan Coppedge, who I've had a meeting with 
in the office, we did invite her to be here today. But they 
are, as she indicated, working on the report and thought it 
might be best not to be here and I certainly understand that.
    We will invite her to testify and I hope she will come 
right after the TIP Report is released and we will again have a 
body of NGOs and expert witnesses to ascertain the pluses and 
minuses of the next TIP Report and I do hope that they get it 
right this time.
    I do want to thank all of you. Ms. Jo, your point about law 
enforcement getting to what Ambassador Lagon was just saying in 
terms of complicity of government--when we wrote the original 
minimum standards to the Trafficking Victims Protection Act and 
government complicity, we absolutely included the police, and 
you pointed out, because law enforcement is certainly an 
integral part of government and very often that is the 
Achilles' heel because that's where the bribes and the 
interface usually takes place with enabling trafficking or 
being part of the solution.
    So thank you for pointing that out with regards to the 
North Koreans and others who are ill-served by the police who 
are part of the problem.
    I thank you all again. The hearing is adjourned.
    [Whereupon, at 4:53 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
